SEMIANNUAL REPORT TO CONGRESS




 U.S. ELECTION ASSISTANCE COMMISSION
       OFFICE OF INSPECTOR GENERAL




For the Period:
April 1, 2011, through
September 30, 2011
A Message from the Inspector General


This report is submitted to Congress pursuant to the Inspector General Act of
1978, as amended. It summarizes the activities of the Office of Inspector
General (OIG) for the six-month period ending September 30, 2011.


During this semiannual reporting period, we issued seven reports on the states’
uses of Help America Vote Act (HAVA) funds. The audits of states’ uses of
HAVA funds show continued problems with maintaining adequate inventory
records of equipment purchased with Federal funds, common problems with
obtaining and maintaining records to support personnel charges to the HAVA
grants, and frequent failures to deposit funds timely into the interest-bearing
election fund resulting in an interest deficit in the election fund. States should
take note of these recurring audit findings and amend their policies, procedures
and practices to ensure that they can demonstrate that grant funds are spent
properly.


We are pleased to see the strides that EAC has made in these areas and will
continue to work with EAC and its grant recipients to resolve concerns related
to the use of grant funds distributed by EAC.


Submitted October 31, 2011



Curtis W. Crider
Inspector General




                                      i
Table of Contents
                                                       Page




Election Assistance Commission Profile                  1


Office of Inspector General Profile                     2

State Audits                                            3

Other Activities                                        9


Appendices:
  A. Reports Issued                                    11
  B. Monetary Impact of Audit Activities               13
  C. Reports with Questioned Costs                     14
  D. Reports with Potential Additional Program Funds   15
  E. Summary of Reports More Than Six Months Old       16
     Pending Corrective Action at September 30, 2011
  F. Summary of Reports More Than Six Months Old       17
     Pending Management Decision at September 30,
     2011
  G. Reporting Requirements of the Inspector           18
     General Act




                             ii
Election Assistance Commission Profile

The U.S. Election Assistance Commission (EAC or Commission) is a bipartisan,
independent commission consisting of four members. There are two sitting
commissioners: Donetta Davidson and Gineen Bresso, and two vacancies on the
Commission due to the resignations of commissioners in February 2009 and
December 2010. The Commission currently lacks a quorum needed to hold
meetings, conduct business and make policy decisions. 1


The EAC was created by the Help America Vote Act of 2002 (HAVA) to assist
states with improving the administration of elections for Federal office. The
EAC accomplishes this mission by providing funding, innovation, guidance and
information to be used by the states to purchase voting equipment, train
election personnel, and implement new election programs. The EAC has
distributed approximately $3.23 billion in grant funding to the 50 states, the
District of Columbia, Puerto Rico, the U.S. Virgin Islands, Guam and American
Samoa (hereinafter referred to as “states”). With those funds, the states have
purchased voting equipment, established statewide voter registration lists,
implemented provisional voting, provided informational material to voters at
the polling place, and implemented a program to verify the identity of voters
using the statewide voter registration list in combination with other state and
Federal databases.


HAVA made EAC responsible for the first Federally-run testing and certification
program for voting systems. The testing and certification program was begun
in 2006. Through this program, the EAC develops standards for voting
equipment, accredits laboratories, and reviews and certifies voting equipment
based upon the tests performed by the accredited laboratories.


The EAC is responsible for administering the National Voter Registration Act
(NVRA) by promulgating regulations for the content and use of the National
Mail Voter Registration form. The EAC published proposed changes to the
1
 According to documents prepared by the EAC General Counsel, the EAC is capable of conducting a large portion
of its business through delegations of authority to the Executive Director and other agency officers.




                                                  1
NVRA regulations and accepted comments through November 23, 2010. The
EAC has not published final changes to those regulations.


Office of Inspector General Profile

HAVA required the appointment of an inspector general for the EAC and
amended the Inspector General Act (IG Act) of 1978 (5 U.S.C.A. App. 3) to
identify the EAC as a designated Federal entity (DFE). The Commission
appointed its first inspector general in August 2006 and the EAC’s Office of
Inspector General (OIG) was created.


The OIG has always been a very small office. At many times over the past four
years, the only employee of the OIG has been the inspector general. Assistance
has been provided by detailing employees from other agencies, contracting for
audits to be conducted by independent CPA firms, and, finally, by hiring
permanent staff to the OIG. The OIG currently has two employees: inspector
general and an assistant inspector general for audits.


Despite our small size, we perform all of the duties required of the inspector
general under the IG Act, including:


   •   Conducting and supervising audits, investigations, and other services
       (e.g., evaluations) relating to the programs and operations of the EAC;


   •   Providing leadership and coordination and recommending actions to
       management, which (1) promote economy, efficiency, and effectiveness
       in agency programs and operations; and (2) prevent and detect fraud,
       waste, abuse, and mismanagement of government resources; and


   •   Keeping the Commission, management, and Congress fully informed
       regarding problems and deficiencies, and the progress of corrective
       actions.




                                       2
We have used detailees and contract auditors to augment our staff and to
conduct many of the state and agency audits. In addition, when conducting an
investigation, we work with other Federal government agencies to detail or
contract for investigative services. While the OIG had previously planned to
reduce its reliance on contractors by hiring some additional in-house auditors
and an investigator, the current budget climate will require that we continue to
use the services of contractors and other Federal agencies to assist with our
auditing and investigative needs.


The OIG’s program to ensure economy, efficiency and integrity in the use of
funds is not exclusively translated into audits of the EAC and its grant
recipients. The OIG also investigates allegations of waste, fraud, abuse and
mismanagement in EAC programs and operations. The OIG operates a hotline
to receive complaints regarding EAC, its programs, and its funding recipients.


State Audits

HAVA funds have been distributed by the EAC to states for use to improve the
administration of Federal elections by purchasing new equipment, establishing
and operating statewide voter lists, implementing provisional voting, and
verifying the identity of persons who wish to register to vote. The OIG conducts
audits of the states’ use of HAVA funds. Through those audits, the OIG
examines:


   •   whether the recipient used HAVA funds in accordance with HAVA and
       other applicable Federal requirements;
   •   whether the recipient has properly accounted for purchases made with
       HAVA funds and any income derived from those purchases;
   •   whether grant funding was maintained and accounted for in keeping with
       HAVA; and
   •   Whether the recipient provided sufficient matching funds and maintained
       Federal monies in a separate, interest-bearing election fund.


During the reporting period, the OIG contracted with the professional auditing



                                     3
firm to conduct the HAVA funds audits. Seven reports were issued based upon
those audits. Below are summaries of those audits:


Nevada: Except for the lack of personnel certifications, inadequate property
records maintenance, failure to transfer interest earnings to the election fund,
using computer equipment for non-HAVA related purposes and the
questionable use of HAVA funds for promotional activities, the audit concluded
that the Secretary of State (SOS) generally accounted for and expended HAVA
funds in accordance with HAVA requirements. Specifically the audit found that:


   •   The State of Nevada charged $744,894 in payroll expenses to the HAVA
       election account which were not supported by documentation to verify
       that the employees worked on HAVA activities.


   •   The state’s inventory listings of voting equipment located at the counties
       did not include all of the information required by federal regulations.


   •   The state treasurer did not transfer interest earnings totaling $16,777 to
       the HAVA election account for May and June 2003.


   •   One of the five counties we visited was using the HAVA funded computer
       equipment acquired for the Statewide Voter Registration System, costing
       $16,434, primarily for daily operations rather than restricting its use to
       HAVA related activities.


   •   Using $20,000 in HAVA funds to support National Women’s Suffrage Day
       activities in 2007 was unallowable.


   •   Using $25,000 in HAVA funds to produce videos to promote voting
       participation and to conduct other events and programs to encourage
       registration and participation in upcoming elections in 2008 was
       unallowable.


The SOS did not agree with the finding and questioned costs related to the
promotional activities, but has taken action on or is working to resolve the


                                      4
other exceptions. The EAC indicated that it would work with Nevada to resolve
the findings.


Texas: Except for the issues discussed below, the audit concluded that the
Secretary of State (SOS) generally accounted for and expended HAVA funds in
accordance with HAVA requirements.


The exceptions needing SOS’s management attention are as follows:


   •   The state did not have adequate documentation to support personnel
       charges to HAVA grants.


   •   All seven of the counties we visited earned program income from the
       rental of HAVA funded voting equipment. Two of the counties did not
       transfer interest earned on program income into a HAVA election
       account. Interest earned by one of the counties was deposited into the
       county treasury and used for non-HAVA purposes, and the other county
       did not earn interest on its HAVA program income.


   •   In one county, 38 HAVA-funded laptop computers were stolen from the
       county election office warehouse. The equipment was not insured against
       theft and the county has not replaced the equipment.


   •   In August 2010, a fire destroyed HAVA-funded voting equipment at one
       county. The county had insured the equipment against loss. The
       insurance proceeds were used to replace the HAVA-funded voting
       equipment; however, interest earned on proceeds between the dates the
       insurance proceeds were received and when they were paid out was not
       transferred into the HAVA election account.


SOS management generally agreed with the report’s finding and
recommendations, and provided corrective action. However, they disagreed that
the one county that did not earn interest on its program income should be
required to calculate the amount of the lost interest and deposit that amount
into the county’s election fund, and they disagreed with the recommendation


                                    5
that interest on the insurance proceeds from HAVA equipment destroyed in a
fire should be calculated and deposited into the county’s election fund. The
EAC indicated that it would work with Texas to resolve the issues identified in
the report.


Arizona: Except for the questionable use of HAVA funds for promotional
activities, the lack of personnel certifications, and the maintenance of adequate
property records the audit concluded that the Secretary of State (SOS) generally
accounted for and expended HAVA funds in accordance with the HAVA
requirements.


The exceptions needing SOS’s management attention are as follows:


   •   SOS incurred unallowable HAVA expenses of $20,000 for the Kids Voting
       Arizona program.


   •   SOS did not prepare the semi-annual certifications as for the salary and
       expenses of $147,141.


   •   Records for HAVA funded equipment for one of the six counties we
       visited did not conform to federal regulations.


The SOS generally agreed with the findings and recommendations, except for
the questioned costs for Kids Voting Arizona. The SOS disagreed with the
finding that providing funds to Kids Voting Arizona would fall outside the scope
of voter education. The SOS believes that all three programs were targeted to
high school students, ages 16 to 18, which would be eligible to vote in the next
general election. The SOS also believes that the programs were in line with the
intent of HAVA Section 295, the National Student and Parent Mock Elections
section, the goals of which were to educate high school age students on the
voting process and to also encourage participation in elections. The EAC
indicated that it would work with Arizona to resolve the issues.


Kansas: This audit of the Kansas Secretary of State (SOS) disclosed that the SOS
generally accounted for and expended HAVA funds in accordance with the


                                     6
HAVA requirements and complied with the financial management requirements
established by the EAC. The SOS also complied with Section 251 requirements.
There were some exceptions to this general finding:


   •   Records for HAVA funded equipment for the SOS election voter
       information system and for voting equipment at three counties did not
       conform to federal requirements.


   •   Only a portion of the state matching funds were deposited into the
       election fund after the receipt of the 2004 requirements payment,
       resulting in lost interest to the election fund.


   •   Program income on HAVA funds of $82,010 was used to meet the 2009
       and 2010 state match requirements without EAC approval.


   •   Using $20,000 in HAVA funds for the Kids Voting Kansas program and
       $949.51 for printing voter registration forms was unallowable.


The SOS was in general agreement with the findings and recommendations;
however, the SOS believes that the Kids Voting Kansas was an appropriate use
of HAVA funds. The SOS stated that they would work with the EAC to resolve
the issues. The EAC indicated that it would work with Kansas to resolve the
issues.


New Jersey: Except for the failure to maintain adequate equipment/property
maintenance records (property records), the failure to use formal solicitation
procedures to purchase voting equipment and the failure to deposit the
appropriated match and the interest earned on the match to the election
account, the audit concluded that the Department of State (DOS) generally
accounted for and expended HAVA funds in accordance with the requirements
established by HAVA and the EAC.


The exceptions needing the DOS’s management included:




                                       7
   •   Property records for statewide voter registration system equipment
       purchased by the DOS and the voting equipment purchased by the
       counties were not maintained in accordance with federal regulations.


   •   The counties we visited did not use formal solicitation procedures to
       purchase voting equipment in accordance with federal regulations.


   •   The DOS did not deposit the appropriated match and the interest earned
       on the match in the election account.


The DOS agreed with the report’s audit results, and described the proposed
actions to be taken, or that had been taken, to resolve the issues. The EAC
indicated general agreement with the report findings and recommendations,
and stated that they would work with the state to ensure corrective action.


Illinois: The audit concluded that, except for the maintenance of comprehensive
property records, the State Board of Elections (SBOE) generally accounted for
and expended HAVA funds in accordance with the HAVA requirements and
complied with the financial management requirements established by the EAC.
The SBOE also complied with section 251 requirements. The SBOE agreed with
the report’s finding and recommendation, and provided corrective action. The
EAC indicated general agreement with the report finding and recommendation,
and stated that they would work with the state to ensure corrective action.


Pennsylvania: The audit concluded that the Pennsylvania Bureau of
Commissions, Elections and Legislation (BCEL) generally accounted for and
expended HAVA funds in accordance with the HAVA requirements and complied
with the financial management requirements established by the EAC. However,
the audit disclosed that the BCEL failed to maintain adequate property records
over HAVA funded equipment, possessed unexpended Section 102 funds after
the deadline and lacked certifications for payroll expenditures. The BCEL
generally agreed with the report’s findings and recommendations. The EAC
indicated general agreement with the report findings and recommendations,
and stated that they would work with the state to ensure corrective action.




                                     8
Other Activities

Reviews of Legislation, Rules, Regulations and Other Issuances


The OIG conducts regular monitoring of EAC program activities and policy-
making efforts. We provide comment to significant policy statements,
rulemaking and legislation that affects the EAC. During a large part of the
reporting period, the EAC did not have a quorum and did not issue any policy
determinations. The Administration issued several pieces of guidance and
Executive Orders during the reporting period, which we reviewed. Last, we
participated in surveys and data calls issued by the Council of Inspectors
General on Integrity and Efficiency.


Non-Federal Audits


OMB Circular A-133 establishes audit requirements for State and local
governments, receiving Federal awards. Covered entities that expend $500,000
or more a year in Federal awards are required to obtain an annual organization-
wide audit “single audit”. The audits are conducted by non-Federal auditors,
such as public accounting firms and State auditors. OIG reviews the resulting
audit reports, findings and questioned costs related to EAC awards.


During this reporting period, the OIG referred the following single audits to the
EAC:

   •   Commonwealth of Virginia Single Audit for the Year Ended June 30, 2010

   •   Bullitt County Fiscal Court for the Year Ended June 30, 2010


Hotline Complaints


The OIG received 25 complaints during the reporting period. Eighteen of those
complaints did not warrant an investigation by the OIG given the nature of the
complaint.     One complaint was referred to another government agency for



                                          9
response. Five of the complaints are currently under review. Finally, we
attempted to obtain additional information regarding one complaint and
received no response from the complainant. The complaint was closed for lack
of sufficient information.


Matters Referred to Prosecuting Authorities


We are reporting no activities in this category during the reporting period.


Denial of Access to Records


We are reporting no activities in this category during the reporting period.


Peer Review Reports


The EAC OIG was subject to a peer review in 2009. The review was conducted
by the Federal Maritime Commission Office of Inspector General (FMC OIG).
The report detailing that review was issued on June 10, 2009. The FMC OIG
gave the EAC OIG a “pass” rating. No material deficiencies were noted.
However, the FMC OIG did address four issues in its letter of comment:


   •   Complete independent statements in keeping with audit policy;
   •   Monitor continuing professional education requirements of auditors
       detailed from other OIGs;
   •   Use work paper check list to ensure that work papers have sufficient
       support for audit documentation and supervisory review; and
   •   Ensure technical checklist for monitoring audits performed by
       independent public accountants is used for each such audit.


Each of these recommendations has been implemented. There are no
outstanding recommendations.


The EAC OIG is scheduled for its next peer review in March of 2012.




                                    10
                                                     Appendix A
Reports Issued

State Audits     1. Administration of Payments Received Under
                 the Help America Vote Act by the Nevada
                 Secretary of State (Assignment Number E-HP-
                 NV-02-11), September 2011


                 2. Administration of Payments Received Under
                 the Help America Vote Act by the Texas
                 Secretary of State (Assignment Number E-HP-
                 TX-01-11), August 2011


                 3. Administration of Payments Received Under
                 the Help America Vote Act by the Arizona
                 Secretary of State (Assignment Number E-HP-
                 AZ- 04-11), August 2011


                 4. Administration of Payments Received Under
                 the Help America Vote Act by the Kansas
                 Secretary of State(Assignment Number E-HP-
                 KS-03-11), August 2011


                 5. Administration of Payments Received Under
                 the Help America Vote Act by the New
                 Jersey Department of State(Assignment
                 Number E-HP-NJ-11-10), June 2011


                 6. Administration of Payments Received Under
                 the Help America Vote Act by the Illinois State
                 Board of Elections(Assignment Number E-HP-
                 IL-12-10 ), May 2011




                          11
                 7. Administration of Payments Received Under
                 the Help America Vote Act by the Pennsylvania
                 Bureau of Commissions, Elections and
                 Legislation (Assignment Number E-HP-PA-10-
                 10), May 2011



EAC Audits       None

Investigations   None




                          12
                                                          APPENDIX B
   Monetary Impact of Audit Activities

   Questioned Costs*                                   $ 25,472,676
   Potential Additional Program Funds                    $ 607,901
   Funds to Be Put to Better Use                                $0
   Total                                               $ 26,080,577
*Unsupported costs are included in questioned costs.




                                         13
                                                              APPENDIX C
Reports With Questioned Costs

                                            Questioned       Unsupported
          Category               Number          Costs          Costs

A. For which no management
decision had been made by
the beginning of the reporting
period.                            5            $1,436,062       $0

B. Which were issued during
the reporting period.              6        $25,472,676          $0

Subtotals (A + B)                  11       $26,908,738          $0

C. For which a management
decision was made during the
reporting period.                  4        $ 1,125,115          $0

 (i) Dollar value of
recommendations that were
agreed to by management.                    $      26,459        $0

 (ii) Dollar value of
recommendations not agreed
to by management.                           $ 1,098,656          $0

D. For which no management
decision has been made by
the end of the reporting
period.                            7        $25,783,623          $0




                                       14
                                                    APPENDIX D
Reports With Potential Additional Program Funds

            Category                   Number   Dollar Value

A. For which no management
decision had been made by the
beginning of the reporting
period.                                  3      $ 1,991,118
B. Which were issued during the
reporting period.                        4      $   607,901

Subtotals (A+B)                          7      $ 2,599,019

C. For which a management
decision was made during the
reporting period.                        3      $ 1,991,118

 (i) Dollar value of
recommendations that were
agreed to by management.                        $ 1,988,723

 (ii) Dollar value of
recommendations that were not
agreed to by management.                        $     2,395

D. For which no management
decision has been made by the
end of the reporting period.             4      $   607,901




                                  15
                                                                      APPENDIX E
Summary of Reports More Than Six Months Old Pending
Corrective Action at September 30, 2011

The following is a list of audit and evaluation reports that are more than six
months with management decisions for which corrective action has not been
completed. It provides report number, title, issue date, and the number of
recommendations without final corrective action.

I-EV-EAC-01-07B            Assessment of the U.S. Election Assistance
                           Commission’s Program and Financial Operations,
                           February 2008, 8 Recommendations


E-HP-UT-09-10              Administration of Payments Received Under the Help
                           America Vote Act by the Utah Office of Lieutenant
                           Governor, March 2011, 1 Recommendations


E-HP-HI-01-10              Administration of Payments Received Under the Help
                           America Vote Act by the Hawaii Office of Elections,
                           February 2011, 11 Recommendations


E-HP-AL-06-10              Administration of Payments Received Under the Help
                           America Vote Act by the Alabama Secretary of State,
                           January 201, 2 Recommendations




                                        16
                                                                   APPENDIX F
Summary of Reports More Than Six Months Old Pending
Management Decision at September 30, 2011

This listing includes a summary of audit and evaluation reports that were more
than 6 months old on September 30, 2011 and still pending a management
decision. It provides report number, title, and number of unresolved
recommendations.


None.




                                       17
                                                                                  APPENDIX G
Reporting Requirements of the IG Act

 Section of Act                               Requirement                               Page

Section 4(a)(2)       Review of Legislation and Regulations                               9

Section 5(a)(1)       Significant Problems, Abuses, and Deficiencies                    None

Section 5(a)(2)       Recommendations for Corrective Action With Respect to             None
                      Significant Problems, Abuses, and Deficiencies

Section 5(a)(3)       Significant Recommendations From Agency’s Previous Report on
                      Which Corrective Action Has Not Been Completed                     16

Section 5(a)(4)       Matters Referred to Prosecuting Authorities and Resulting         None
                      Convictions

Section 5(a)(5)       Matters Reported to the Head of the Agency                        None

Section 5(a)(6)       List of Reports Issued During the Reporting Period                 11

Section 5(a)(7)       Summary of Significant Reports                                      3

Section 5(a)(8)       Statistical Table – Questioned Costs                               14

Section 5(a)(9)       Statistical Table – Recommendations That Funds Be Put to Better   None
                      Use

Section 5(a)(10)      Summary of Audit Reports Issued Before the Commencement of        None
                      the Reporting Period for Which No Management Decision Has
                      Been Made

Section 5(a)(11)      Significant Revised Management Decisions Made During the          None
                      Reporting Period

Section 5(a)(12)      Significant Management Decisions With Which the Inspector         None
                      General Is in Disagreement

Section 5(a)(13)      Information Described Under Section 804(b) of the Federal         None
                      Financial Management Improvement Act of 1996

Section 5(a)(14)(A)   Peer Review Reports Conducted on U.S. Election Assistance         None
                      Commission Office of Inspector General during the Reporting
                      Period


                                                18
 Section of Act                                Requirement                            Page
Section 5(a)(14)(B)   Statement of Peer Review Conducted on the U.S. Election          10
                      Assistance Commission Office of Inspector General during a
                      Prior Reporting Period

Section 5(a)(15)      Outstanding Recommendations from a Peer Review Report on        None
                      the U.S. Election Assistance Commission Office of Inspector
                      General

Section 5(a)(16)      Peer Review Reports Conducted by the U.S. Election Assistance   None
                      Commission Office of Inspector General




                                                19
                           Help to ensure efficient, effective, and transparent EAC operations and
OIG’s Mission
                           programs




                           Copies of OIG reports are available on the OIG website,
                           www.eac.gov/inspector_general.

                           Copies of OIG reports can be requested by e-mail: (eacoig@eac.gov).

                           Mail orders should be sent to:
Obtaining Copies
                                U.S. Election Assistance Commission
of OIG Reports
                                Office of Inspector General
                                1201 New York Ave. NW - Suite 300
                                Washington, DC 20005

                           To order by phone: Voice:    (202) 566-3100
                                                 Fax:   (202) 566-0957



                           By Mail:   U.S. Election Assistance Commission
                                      Office of Inspector General
To Report Fraud, Waste
                                      1201 New York Ave. NW - Suite 300
and Abuse Involving the               Washington, DC 20005
U.S. Election Assistance
Commission or Help         E-mail:    eacoig@eac.gov

America Vote Act Funds
                           OIG Hotline: 866-552-0004 (toll free)

                           On-Line Complaint Form: www.eac.gov/inspector_general

                           FAX: 202-566-0957
               Inspector General
              U.S. Election Assistance Commission




This report, as well as other OIG reports and testimony, are available on the internet at:
www.eac.gov/inspector_general
